No. 19-261

 

 

In the
Supreme Court of the United States

Steven T. Waltner and Sarah V. Waltner,
Petitioners,
v.
Commissioner of Internal Revenue,
Respondent.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

°

CERTIFICATE OF COMPLIANCE

+

DONALD W. WALLIS
Counsel of Record
UPCHURCH, BAILEY & UPCHURCH, P.A.
780 N. Ponce de Leon Blvd.
Post Office Drawer 3007
St. Augustine, FL 32085
(904) 829-9066
dwallis@ubulaw.com

Counsel for Petitioners
Steven T. Waliner and Sarah V. Waltner

 

 

 

 
CERTIFICATE OF COMPLIANCE
Pursuant to Supreme Court Rule 33.1(h), I hereby certify as follows:

1. The Petition for Rehearing of Petition for a Writ of Certiorari of Steven T.
Waltner and Sarah V. Waltner complies with the type and volume limitations set forth in
the Rules of the United States Supreme Court. The Petition for Rehearing contains 1,896
words, excluding the parts that are exempted by Supreme Court Rule 33.1(d).

2. The Petition for Rehearing complies with the typeface requirements of
Supreme Court Rule 33.1(b). It has been prepared with New Century Schoolbook font in
12-point type, with 10-point type in the footnotes.

I declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct.

Executed this 4th day of November, 2019.

Stich Vowel

Sarah Van Hoey

    
